           Office Of Inspector General




January 10, 2005

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:         Audit Report – Fiscal Year 2004 Postal Service Financial Statements
                 Audit – Washington, D.C., Headquarters
                 (Report Number FT-AR-05-006)

This report presents the results of our audit of selected financial activities and
accounting records at Postal Service Headquarters for the fiscal year ended
September 30, 2004 (Project Number 04XD012FT000). The Postal Reorganization
Act of 1970, as amended, requires annual audits of the Postal Service’s financial
statements. This audit was conducted in support of the independent public accounting
firm’s overall audit opinion on the Postal Service’s financial statements.

Management’s financial accounting policies and procedures conformed with accounting
principles generally accepted in the United States and provided for an adequate internal
control structure. Additionally, general ledger account balances for investments,
unemployment compensation, workers’ compensation, and Governors’ and officers’
travel and expenses were stated in the national trial balance in accordance with
accounting principles generally accepted in the United States. Also, we did not identify
any instances of noncompliance with laws and regulations that have a direct and
material effect on the financial statements.

In fiscal year 2004, the Postal Service switched from 28-day accounting periods to
monthly reporting. In addition, the Postal Service implemented a new general ledger
system, and therefore made a number of changes to its legacy chart of accounts,
including the elimination and creation of accounts. The Postal Service’s general ledger
account balances remained consistent with the general classification of accounts from
the previous year. The asset, liability, equity, income, expense, and commitment
accounts were appropriately classified in the new general ledger system.

The results of the audit were discussed with Postal Service management on
October 25, 2004. Because there were no recommendations provided, management
chose not to respond to this report.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact John E. Cihota, Director, Financial Statements,
or me at (703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Richard J. Strasser, Jr.
    Robert J. Pedersen
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps
Fiscal Year 2004 Postal Service Financial Statements Audit –                         FT-AR-05-006
 Washington, D.C., Headquarters


                                         INTRODUCTION
 Background                     Postal Service Headquarters Finance establishes
                                accounting policies and provides guidelines for recording
                                and reporting Postal Service financial transactions. Internal
                                control and reporting systems have been created to ensure
                                that Postal Service management and the public receive
                                meaningful financial information in accordance with
                                generally accepted accounting principles. This audit was
                                conducted in support of the independent public accounting
                                firm’s overall audit opinion on the Postal Service’s financial
                                statements.

                                On October 1, 2003, the Postal Service implemented a new
                                general ledger system to improve and support all period
                                reporting and finance/unit level reporting. As a result of this
                                new system, the Postal Service reviewed its legacy chart of
                                accounts and eliminated approximately 2,400 accounts.
                                These accounts had either zero activity for at least one year
                                or annual activity of less than $100,000 in charges. The
                                Postal Service also added new accounts to accommodate
                                account consolidations.

                                Additionally, the Postal Service transitioned from a 28-day
                                to a monthly accounting period to report its interim financial
                                results. Monthly reporting is typically used in both the
                                private and public sectors. It allows comparative analyses
                                between the Postal Service and its customers and
                                competitors. This change should also help with the
                                inclusion of economic forecasts and economic histories that
                                are almost always represented in a monthly and calendar
                                quarter format.

                                Separate financial statements audit reports will be issued for
                                the Eagan, San Mateo, and St. Louis Information
                                Technology and Accounting Service Centers (IT/ASCs).
                                Further, in addition to the overall opinion on the Postal
                                Service's financial statements, the Board of Governors’
                                independent public accounting firm contracted to express an
                                opinion on the financial statements will issue separate
                                reports on the Postal Service's internal controls and
                                compliance with laws and regulations. Also, a separate
                                report will be issued for the audit of the fiscal year (FY) 2004
                                information system controls at the Eagan, San Mateo, and
                                St. Louis IT/ASCs.




                                                     1
FY 2004 Postal Service Financial Statements Audit –                                                  FT-AR-05-006
 Washington, D.C., Headquarters




    Objectives, Scope,             The objectives of the audit were to determine whether:
    and Methodology
                                   •    The financial accounting policies and procedures
                                        provided for an adequate internal control structure and
                                        were in compliance with accounting principles generally
                                        accepted in the United States.

                                   •    Accounting transactions that affect the general ledger
                                        account balances for investments, unemployment and
                                        workers’ compensation, and Governors’ and officers’
                                        travel and expenses were fairly stated in the national
                                        trial balance in accordance with accounting principles
                                        generally accepted in the United States.

                                   •    General ledger account balances conformed with the
                                        general classification of accounts of the Postal Service
                                        on a basis consistent with that of the previous years.1

                                   •    The Postal Service was in compliance with laws and
                                        regulations that have a material and direct effect on the
                                        financial statements as a whole.

                                   To accomplish our objectives, we conducted fieldwork from
                                   April through November 2004. As part of our audit, we
                                   assessed internal controls, tested transactions, and verified
                                   the following account balances as of September 30, 2004:

                                       •    $7.5 billion in workers’ compensation liability.
                                       •    $1.28 billion in short-term United States Treasury
                                            securities.
                                       •    $57.3 million in unemployment compensation liability.
                                       •    $5.3 million in investment income.
                                       •    $5.3 million in certificates of deposit.

                                   In addition, we verified the Board of Governors’ travel and
                                   miscellaneous expenses totaling about $234,000, and we
                                   tested and accepted officers’ travel and representation
                                   expenses totaling about $1.4 million.



1
 This objective is applicable to the work done at the Eagan IT/ASC, based on feedback from Office of Inspector
General teams at the St. Louis and San Mateo IT/ASC sites and Postal Service Headquarters.




                                                           2
                                              Restricted Information
FY 2004 Postal Service Financial Statements Audit –                                FT-AR-05-006
 Washington, D.C., Headquarters



                                This audit was conducted from April 2004 through
                                January 2005 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as were considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments, where appropriate.

                                We relied on computer-generated data from several Postal
                                Service financial systems, including the e-Travel system,
                                Chase Insight, Workers’ Compensation Master File,
                                Accounting Data Mart, and the General Ledger. We
                                performed specific internal control and transaction tests on
                                these systems’ data, to include tracing selected financial
                                information to supporting source records. For example, we
                                reconciled the number of claimants and dollar amounts on
                                the Workers' Compensation Master File against Department
                                of Labor payment records.

 Prior Audit Coverage           We have audited the financial activities and accounting
                                records at Postal Service Headquarters since FY 1998. The
                                results of our most recent audit for FY 2003 were disclosed
                                in the audit report, Fiscal Year 2003 Postal Service
                                Financial Statement Audit – Washington, D.C.,
                                Headquarters (Report Number FT-AR-04-005,
                                January 16, 2004).

 Audit Results                  The audit disclosed that management’s financial accounting
                                policies and procedures conformed with accounting
                                principles generally accepted in the United States and
                                provided for an adequate internal control structure.
                                Additionally, general ledger account balances for
                                investments, unemployment compensation, workers’
                                compensation, and Governors’ and officers’ travel and
                                expenses were stated in the national trial balance in
                                accordance with accounting principles generally accepted in
                                the United States. Also, we did not identify any instances of
                                noncompliance with laws and regulations that have a direct
                                and material effect on the financial statements.

                                In FY 2004, the Postal Service switched from 28-day
                                accounting periods to monthly reporting. In addition, the
                                Postal Service implemented a new general ledger system,



                                                       3
                                          Restricted Information
FY 2004 Postal Service Financial Statements Audit –                               FT-AR-05-006
 Washington, D.C., Headquarters


                                and therefore made a number of changes to its legacy chart
                                of accounts, including the elimination and creation of
                                accounts. The Postal Service’s general ledger account
                                balances remained consistent with the general classification
                                of accounts from the previous year. The asset, liability,
                                equity, income, expense, and commitment accounts were
                                appropriately classified in the new general ledger system.

 Audit Comment                  As discussed, the Postal Service significantly changed its
                                accounting processes in FYs 2003 and 2004. For example,
                                under the Shared Services/Accounting project, field
                                accounting work was reengineered, residual work was
                                migrated to the three existing accounting service centers,
                                and the 85 district offices were discontinued. In addition,
                                the Postal Service implemented a new general ledger
                                system that significantly reduced the number of accounts
                                and changed the general classification of accounts from the
                                previous year. The Postal Service developed policy and
                                procedure manuals to describe key account processes and
                                controls. For example, the Postal Service developed the
                                Postmaster/Field Guide Policies, Procedures, and
                                Resources, and updated Handbook F-23, Accounting Policy
                                Reference.

                                The Postal Service has made efforts to update other
                                accounting information. As part of its effort to comply
                                voluntarily with Securities and Exchange Commission
                                requirements, the Postal Service is documenting processes
                                material to the financial statements. However, certain other
                                information remains to be updated, including definitions of
                                the new chart of accounts and journal voucher numbers
                                and the accounting service center accounting guidelines.

                                Information such as general ledger account and journal
                                voucher number descriptions help Postal Service
                                accounting personnel manage the general ledger, including
                                functions such as reconciling general ledger accounts. We
                                recognize the Postal Service is continuing its efforts to
                                update its policies and procedures due to the ongoing
                                accounting changes.




                                                       4
                                          Restricted Information
FY 2004 Postal Service Financial Statements Audit –                                FT-AR-05-006
 Washington, D.C., Headquarters



                                We are not making any further recommendations at this
                                time. As part of our FY 2005 financial statements audit, we
                                will continue to monitor the Postal Service’s efforts in this
                                area

 Management’s                   The results of the audit were discussed with Postal Service
 Comments                       management on October 25, 2004. Because there were no
                                recommendations provided, management chose not to
                                respond to this report.

 Evaluation of                  No action by management was required.
 Management’s
 Comments




                                                       5
                                          Restricted Information
